App. 1
In the
United States Court of Appeals
for the Seventh Circuit
-----------------------------------------------------------------------

No. 20-1621
SUSAN BENNETT,
Plaintiff-Appellant,
v.
COUNCIL 31 OF THE AMERICAN FEDERATION OF STATE,
COUNTY AND MUNICIPAL EMPLOYEES, AFL-CIO, et al.,
Defendants-Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Central District of Illinois. No. 4:19-cv-04087—
Sara Darrow, Chief Judge.
-----------------------------------------------------------------------

ARGUED FEBRUARY 17, 2021—DECIDED MARCH 12, 2021
-----------------------------------------------------------------------

Before SYKES, Chief Judge, and FLAUM and ROVNER, Circuit Judges.
FLAUM, Circuit Judge. When plaintiff–appellant
Susan Bennett began working as a custodian for
defendant–appellee Moline-Coal Valley School District
(the “School District”), she had the choice either to
become a member of defendants–appellees American
Federation of State, County, and Municipal Employees

App. 2
(“AFSCME”) Local 672 and AFSCME Council 31 (collectively, the “Union”) and pay union dues or to decline
membership yet pay “fair-share” or “agency” fees.1 She
chose to join the Union. Following the Supreme
Court’s decision in Janus v. American Federation of
State, County, and Municipal Employees, Council 31,
138 S. Ct. 2448 (2018), she notiﬁed the Union and the
School District that she wished to resign her membership and terminate all payments to the Union. The Union allowed Bennett to resign her membership and opt
out of payments, but only after the lapse of the window
set forth in her union-membership agreement.
Bennett ﬁled suit in federal district court, asserting that the deduction of union dues from her wages
violated her rights under the First Amendment to the
U.S. Constitution, as recognized in Janus. She also asserted that the Union’s exclusive representation of her
interests, even though she is no longer a member, violates her constitutional rights by allowing the Union
to speak on her behalf. Bennett sought damages in an
amount equal to the dues deducted from her paychecks
up to the statute of limitations as well as various forms
of declaratory and injunctive relief. The parties ﬁled
cross-motions for summary judgment, and the district court granted summary judgment in favor of all
defendants–appellees. Bennett now appeals.
In a matter of ﬁrst impression before this Court,
Bennett cannot establish that the deduction from her
1

For simplicity, we use “fair-share fees” throughout to refer
to these fees.

App. 3
wages of union dues she voluntarily agreed to pay in
consideration for the beneﬁts of union membership violated her First Amendment rights under Janus. Similarly, she cannot establish that Janus rendered the
longstanding exclusive-bargaining-representative system of labor relations unconstitutional. We thus afﬁrm
the judgment of the district court.
I.

Background

A. Statutory and Legal Background
The Illinois Educational Labor Relations Act
(“IELRA” or the “Act”), 115 Ill. Comp. Stat. 5/1 et seq.,
regulates labor relations between Illinois public-sector
educational employers and employees. The Act provides public-sector educational employees with the
right to choose to join a labor organization for purposes
of representation. Id. § 5/3(a). A majority of employees
in a bargaining unit may select a labor organization to
serve as the unit’s exclusive representative “with respect to wages, hours and other terms and conditions
of employment.” See id. §§ 5/8, 5/10(a). Employees need
not become dues-paying members of a union that has
been recognized as an exclusive representative, id.
§ 5/3(a), and a union recognized as an exclusive representative has the duty to represent all employees
within the bargaining unit regardless of whether they
are dues-paying members or not, id. § 5/3(b).
Prior to June 2018, a union certiﬁed as the representative of a bargaining unit could require nonmember employees to pay fair-share fees. See id. § 5/11. The

App. 4
Supreme Court ended that practice when it decided
Janus. The Court in Janus held that the First Amendment prohibits unions and public employers from requiring public-sector employees to subsidize a union
unless an employee afﬁrmatively consents to waive
that right. 138 S. Ct. at 2486. This “waiver must be
freely given and shown by ‘clear and compelling’ evidence.” Id. (quoting Curtis Publ’g Co. v. Butts, 388 U.S.
130, 145 (1967) (plurality opinion))
B. Factual Background
Bennett began her employment as a custodian
with the School District in August 2009. Under the
terms of the IELRA, the Illinois Educational Labor Relations Board had certiﬁed the Union as the exclusive
representative of her bargaining unit of custodial and
maintenance employees. Bennett joined the Union in
November 2009 by signing a membership and dues-deduction-authorization card that stated: “I hereby authorize my employer to deduct the amount as certiﬁed
by the Union as the current rate of dues. This deduction is to be turned over to AFSCME, AFL-CIO.” In August 2017, Bennett signed another membership and
dues-deduction-authorization card that stated:
I hereby afﬁrm my membership in AFSCME
Council 31, AFL-CIO and authorize AFSCME
Council 31 to represent me as my exclusive
representative on matters related to my employment.

App. 5
I recognize that my authorization of dues deductions, and the continuation of such authorization from one year to the next, is voluntary
and not a condition of my employment.
I hereby authorize my employer to deduct
from my pay each pay period that amount
that is equal to dues and to remit such
amount monthly to AFSCME Council 31
(“Union”). This voluntary authorization and
assignment shall be irrevocable for a period of
one year from the date of authorization and
shall automatically renew from year to year
unless I revoke this authorization by sending
written notice . . . to my Employer and to the
Union postmarked not more than 25 days and
not less than 10 days before the expiration of
the yearly period described above, or as otherwise provided by law.
Therefore, as a condition of her most recent union
membership agreement, Bennett authorized the School
District to deduct union dues from her paychecks and
remit that amount to the Union until August 21 during
each authorized year. On that date, her authorization
would automatically renew for the following year unless she revoked it. The membership agreement also
contained a provision establishing a ﬁfteen-day window in which Bennett could revoke her authorization
and stop the withholding of union dues from her wages.
See 5 Ill. Comp. Stat. 315/6(f ) (requiring—if the exclusive representative and public employer agree on an
automatically renewing one-year period of irrevocability for dues authorizations—a minimum of “an annual

App. 6
10-day period” during which employees may revoke
their dues-deduction authorizations); 115 Ill. Comp.
Stat. 5/11.1(a) (same).
On November 1, 2018, after the Supreme Court issued its Janus decision, Bennett sent a letter to AFSCME’s national ofﬁce stating that she wanted to
resign her union membership and asking the Union to
stop collecting dues. On November 5, 2018, she wrote
to the School District’s chief ﬁnancial ofﬁcer, informing
him that she intended to resign her union membership
and requesting that the School District not honor any
prior dues-deduction authorization she had signed. In
their December 3, 2018 response, the School District
told Bennett to contact the Union regarding her inquiries, as the School District has no role, authority,
or discretion in determining union membership or
dues deductions. Ten days later, on or around December 13, 2018, the Union sent a letter to Bennett advising her that it would accept her resignation from
membership as soon as it received written notice that
she wanted to resign but, regardless of whether she resigned from the Union, she could not revoke her duesdeduction authorization until a two-week window from
July 17 to August 11, 2019.
Bennett resigned her union membership on
March 4, 2019, but the School District continued deducting union dues. On July 29, 2019, Bennett sent
another letter to the School District requesting to revoke her dues-deduction authorization. The Union
learned of that letter and treated it as an effective revocation of her dues-deduction authorization under the

App. 7
membership agreement. The School District thus
stopped deducting union dues from Bennett’s wages in
August 2019.
C. Procedural Background
While waiting for the arrival of her two-week revocation window, Bennett brought this action under
42 U.S.C. § 1983 and 28 U.S.C. § 2201(a) against the
Union, the School District, and certain Illinois state ofﬁcials (the “state defendants”). In Count I of the twocount complaint, Bennett alleged that the Union and
the School District violated her First Amendment
rights to free speech and freedom of association by deducting dues from her wages without her afﬁrmative
consent. She alleged that the dues-deduction authorizations she had signed prior to the issuance of the
Janus decision did not provide afﬁrmative consent because they were the product of an unconstitutional
choice between paying full union dues or a fair-share
fee. As a remedy, Bennett sought damages from the
Union in an amount equal to the dues deducted from
her paychecks, both before and after Janus was decided. She also sought various forms of declaratory and
injunctive relief against the Union and the School District. In Count II, brought against the Union and the
state defendants, Bennett alleged that the system of
exclusive representation set forth in the IELRA violates her free speech and associational rights. She
sought a declaration that the Act is unconstitutional
and injunctions barring its enforcement.

App. 8
The state defendants moved to dismiss Count II
under Federal Rule of Civil Procedure 12(b)(6). The remaining parties—Bennett, the Union, and the School
District—submitted a joint stipulated record and ﬁled
cross-motions for summary judgment under Federal
Rule of Civil Procedure 56(a) as to both counts. The district court granted the Union’s and the School District’s motions for summary judgment, as well as the
state defendants’ motion to dismiss, and denied Bennett’s motion for summary judgment. The court dismissed Bennett’s action with prejudice, thus disposing
of all claims against all parties.
This appeal followed.
II.

Discussion

We review de novo dismissals under both Rule
12(b)(6) and Rule 56(a). See Degroot v. Client Servs.,
Inc., 977 F.3d 656, 659 (7th Cir. 2020) (motion to dismiss); Skiba v. Ill. Cent. R.R. Co., 884 F.3d 708, 717 (7th
Cir. 2018) (summary judgment). Per the parties’ agreement, the district court treated the state defendants’
12(b)(6) motion as one for summary judgment under
Rule 56(a). Accordingly, we will review all motions on
appeal under the summary judgment standard. “Summary judgment is appropriate when there is no genuine dispute as to a material fact and the movant is
entitled to judgment as a matter of law.” Est. of Jones
v. Child.’s Hosp. & Health Sys. Inc. Pension Plan, 892
F.3d 919, 923 (7th Cir. 2018). When, as here, the parties filed cross-motions for summary judgment, we

App. 9
construe all reasonable inferences in favor of the party
against whom the motion was granted. Gill v. Scholz,
962 F.3d 360, 363 (7th Cir. 2020). Therefore, we will
view the facts in the light most favorable to Bennett
and draw all reasonable inferences in her favor.
A. Deduction of Union Dues
Bennett ﬁrst challenges the dismissal of Count I
of her complaint, which alleged that the Union and the
School District violated her First Amendment rights
by deducting union dues from her paychecks. She does
not dispute that she voluntarily authorized the deduction of dues or that she was not required to join the
Union as a condition of employment. Nor does she dispute that she voluntarily signed the revised unionmembership agreement in 2017. Instead, Bennett’s appeal turns on the premise that the Supreme Court’s
Janus decision establishing the First Amendment
right of public employees not to subsidize a union without ﬁrst afﬁrmatively consenting to waive that right
applies to deduction of union dues. She contends that
the district court erred because it did not apply Janus’s
test for waiver, and under that test she did not waive
her right. Bennett thus effectively argues that the
Janus decision voided her dues-deduction authorization.
As the Union and the School District point out,
however, the Ninth Circuit and a panel of the Third
Circuit, as well as several district courts, have addressed this very argument that Janus’s waiver

App. 10
requirement applies to union members as well as
nonmembers and found it unavailing. Although not
precedential here, the cases before the courts of appeals bear similarities to the case at hand. In the Third
and Ninth Circuit cases, the plaintiffs were public employees who had, prior to Janus, signed union-membership agreements authorizing their state employers to
deduct union dues from their paychecks. See Fischer v.
Governor of New Jersey, No. 19-3914, 2021 WL 141609,
at *1-2 (3d Cir. Jan. 15, 2021) (nonprecedential decision); Belgau v. Inslee, 975 F.3d 940, 945 (9th Cir. 2020),
petition for cert. docketed, No. 20-1120 (U.S. Feb. 16,
2021). After the Supreme Court issued its Janus decision, each group of plaintiffs requested to resign their
union memberships and terminate their payments. See
Fischer, 2021 WL 141609, at *2; Belgau, 975 F.3d at
946. Their unions allowed the plaintiffs to resign, but
their state employers continued to deduct dues from
their paychecks until the terms of their dues-deduction
authorizations expired as set forth in state law or the
plaintiffs’ membership agreements. See Fischer, 2021
WL 141609, at *2; Belgau, 975 F.3d at 946. The plaintiffs in each case sued their union and various state
defendants, asserting that the defendants violated
their First Amendment rights, as established in Janus,
by collecting union dues from them without their consent and after they requested to terminate all such
payments; by their formulation, Janus abrogated the
commitments set forth in their membership agreements and required the state to obtain a constitutional
waiver to deduct union dues from its employees’ wages.

App. 11
See Fischer, 2021 WL 141609, at *3, *7; Belgau, 975
F.3d at 944, 950.
Both circuit court panels rejected the plaintiffs’
Janus arguments. Relying on the Supreme Court’s
decision in Cohen v. Cowles Media Co., 501 U.S. 663
(1991), they explained that “[t]he First Amendment
[did] not support [the plaintiffs’] right to renege on
their promise to join and support the union” because
that “promise was made in the context of a contractual
relationship between the union and its employees.”
Belgau, 975 F.3d at 950. See also Fischer, 2021 WL
141609, at *8 n.18 (“[E]nforcement of Plaintiffs’ membership agreements does not violate the First Amendment given that those agreements are enforceable
under laws of general applicability. . . .”). Applying
those First Amendment principles, the circuit court
panels also agreed that “‘Janus does not extend a First
Amendment right to avoid paying union dues’ when
those dues arise out of a contractual commitment that
was signed before Janus was decided.” Fischer, 2021
WL 141609, at *8 (quoting Belgau, 975 F.3d at 951).
Having determined that the plaintiffs suffered no infringement upon their First Amendment rights, the
Third Circuit panel and the Ninth Circuit rejected the
argument that Janus requires a constitutional waiver
before union dues are deducted. See id. at *8 n.18;
Belgau, 975 F.3d at 952. In reaching this holding, both
panels noted that they were joining a “swelling chorus
of courts” recognizing that Janus did not create a new
waiver requirement for union members. See Fischer,
2021 WL 141609, at *8; Belgau, 975 F.3d at 951.

App. 12
We see no reason to disagree. The First Amendment “does not confer . . . a constitutional right to
disregard promises that would otherwise be enforced
under state law.” Cohen, 501 U.S. at 672. Bennett authorized the deduction of union dues as part of her
membership agreement with the Union—that is, “in
the context of a contractual relationship.” See Belgau,
975 F.3d at 950. The Illinois common law of contracts
is a “law of general applicability” that applies broadly,
rather than targeting any individual, and does not offend the First Amendment. See Cohen, 501 U.S. at 670.
The First Amendment therefore does not, without
more, render unenforceable any “legal obligations” or
“restrictions that . . . are self-imposed” through a contract. See id. at 671.
Moreover, it is generally accepted that “the legal
framework that existed at the time of a contract’s execution must bear on its construction” and that “a subsequent change in the law cannot retrospectively alter
the parties’ agreement.” Fla. E. Coast Ry. Co. v. CSX
Transp., Inc., 42 F.3d 1125, 1129-30 (7th Cir. 1994)
(applying Florida law to settlement agreement). See
also 11 Williston on Contracts § 30:23 (4th ed. 2020)
(“[C]hanges in the law subsequent to the execution of
a contract are not deemed to become part of [an] agreement unless its language clearly indicates such to have
been [the] intention of [the] parties.”). Rather, “[b]y
binding oneself [by agreement,] one assumes the risk
of future changes in circumstances in light of which
one’s bargain may prove to have been a bad one.”
United States v. Bownes, 405 F.3d 634, 636 (7th Cir.

App. 13
2005).2 “That is the risk inherent in all contracts; they
limit the parties’ ability to take advantage of what may
happen over the period in which the contract is in
effect.” Id. We see here no clear indication that the
parties intended the terms of Bennett’s membership
agreements and dues-deduction authorizations to incorporate future changes in the law. Consequently, we
agree with the reasoning of the Third and Ninth Circuit panels and conclude that the First Amendment
does not provide Bennett with a right to renege on her
bargained-for commitment to pay union dues.
We also agree that Janus does not require a different result. In that case, the Supreme Court held that
the practice of automatically deducting fair-share fees
from nonmembers who “need not be asked” and “are
not required to consent before the fees are deducted”
violated those nonmembers’ First Amendment rights
by compelling them to subsidize the union’s speech.
Janus, 138 S. Ct. at 2460-61, 2486. In contrast, Janus
said nothing about union members who, like Bennett,
freely chose to join a union and voluntarily authorized
the deduction of union dues, and who thus consented
to subsidizing a union. While Bennett tries to decouple
the decision to join the Union from the decision to pay
union dues by framing the right at issue here as the
“right to pay no money to the Union” (as she claims was
2

Although Bownes involved a plea agreement, we made explicitly clear that the analysis applied equally to contracts. See
405 F.3d at 636 (“In a contract (and equally in a plea agreement)
one binds oneself to do something that someone else wants, in exchange for some beneﬁt to oneself.”).

App. 14
recognized in Janus), she cannot do so: “By joining the
union and receiving the beneﬁts of membership, [Bennett] also agreed to bear the ﬁnancial burden of membership.” Belgau, 975 F.3d at 951. See also Oliver v.
Serv. Emps. Int’l Union Loc. 668, 830 F. App’x 76, 79 n.3
(3d Cir. 2020) (nonprecedential decision) (explaining
that one “cannot simultaneously choose to both join the
Union and not pay union dues”); Allen v. Ohio Civ. Serv.
Emps. Ass’n AFSCME, Loc. 11, No. 2:19-CV-3709, 2020
WL 1322051, at *8 (S.D. Ohio Mar. 20, 2020) (“By joining the union, Plaintiffs simultaneously acquired all of
the beneﬁts and burdens of membership.”), appeal dismissed, Nos. 20-3440 & 20-3495, 2020 WL 4194952
(6th Cir. July 20, 2020).
Nothing in Janus suggests that its holding regarding union-related deductions from nonmembers’ wages
also applies to similar ﬁnancial burdens on union
members. The Janus Court explicitly “dr[ew] the line
at allowing the government to . . . require all employees to support the union.” 138 S. Ct. at 2478. The Court
also explicitly stated that “[s]tates can keep their labor-relations systems exactly as they are—only they
cannot force nonmembers to subsidize public-sector
unions.” Id. at 2485 n.27. As we stated on remand in
that case, the Court “was not concerned in the abstract
with the deduction of money from employees’ paychecks pursuant to an employment contract.” Janus v.
Am. Fed’n of State, Cnty. & Mun. Emps., Council 31
(“Janus II”), 942 F.3d 352, 357 (7th Cir. 2019). Nor did
it provide “an unqualiﬁed constitutional right to accept
the beneﬁts of union representation without paying.”

App. 15
Id. at 358. Stated differently, “[t]he only right . . . recognized is that of an objector not to pay any union fees.”
Id.
In a last-ditch effort to evade this conclusion, Bennett argues that Janus’s waiver requirement nonetheless applies to the deduction of union dues “[b]ecause
all employees are nonmembers when they ﬁrst sign a
union membership card and authorize dues deductions.” She seizes on language in Janus stating that an
employee’s afﬁrmative consent is required before “an
agency fee [or] any other payment to the union may be
deducted from a nonmember’s wages,” and that “[b]y
agreeing to pay, nonmembers are waiving their First
Amendment rights, and such a waiver cannot be presumed.” Janus, 138 S. Ct. at 2486. She argues that the
second part of this passage must apply to employees in
Bennett’s position because, by deﬁnition, only union
members have agreed to pay money to the union. In
other words, she contends that it cannot apply to nonmember employees who have never agreed to pay the
union and thus never waived their First Amendment
rights.
Bennett, however, is not a nonmember as the term
was used in Janus. Read as a whole, Janus distinguished between those who consented to join a union—
as Bennett did—and those who did not. In the same
passage on which Bennett relies, the Court made clear
that a union may collect dues when an “employee afﬁrmatively consents to pay.” Id. As we explained above,
Bennett voluntarily signed the membership agreements, which “authorize[d] [her] employer to deduct”

App. 16
her union dues and remit them to the Union. In August
2017, she also agreed that this authorization would remain in effect for the duration of her employment unless she validly revoked the authorization. Having
consented to pay dues to the union, regardless of the
status of her membership, Bennett does not fall within
the sweep of Janus’s waiver requirement. See Belgau,
975 F.3d at 952 (explaining that Janus “in no way created a new First Amendment waiver requirement for
union members before dues are deducted pursuant to
a voluntary agreement”). Having determined that Bennett did not suffer a violation of her First Amendment
rights, we conclude that the district court appropriately granted summary judgment for defendants—appellees as to Count I.
B. Exclusive Representation
Bennett also appeals the dismissal of Count II of
her complaint, which alleged that provisions in the
IELRA providing for the Union’s exclusive representation of her interests—even though she is no longer a
member—violate her First Amendment free speech
and associational rights. The First Amendment “forbids abridgment of the freedom of speech.” Janus, 138
S. Ct. at 2463. It also “encompasses both the freedom
to associate and the freedom not to associate.” Hill v.
Serv. Emps. Int’l Union, 850 F.3d 861, 863 (7th Cir.
2017) (citing Knox v. Serv. Emps. Int’l Union, Loc. 1000,
567 U.S. 298, 309 (2012)). “Mandatory associations
are subject to exacting scrutiny, meaning they require
a compelling state interest that cannot be achieved

App. 17
through signiﬁcantly less-restrictive means.” Id. Bennett argues that the IELRA creates a mandatory association subject to heightened scrutiny. We agree with
the district court that caselaw forecloses this argument.
In Minnesota State Board for Community Colleges
v. Knight, 465 U.S. 271 (1984), the Supreme Court rejected a First Amendment challenge to a Minnesota
law that provided for exclusive-bargaining-unit representation for purposes of collective bargaining and on
matters outside the scope of mandatory negotiations.
See id. at 273-78. The Court held that the challenged
law “in no way restrained [the employees’] freedom to
speak . . . or their freedom to associate or not to associate with whom they please, including the exclusive
representative.” Id. at 288. The Court explained that
the employees’ free speech rights had not been infringed because the law did not deny nonunion members access to a public forum, and public employees
had no right to be heard by, or negotiate individually
with, their government employer. See id. at 280-83,
286-87. Similarly, the Minnesota law did not violate
the employees’ associational rights because they remained “free to form whatever advocacy groups they
like” and were “not required to become members of [the
union].” Id. at 289.
We followed Knight to uphold the constitutionality
of the exclusive-bargaining-representative provisions
of the Illinois Public Labor Relations Act—the parallel
statute to the IELRA—in Hill v. Service Employees International Union. 850 F.3d at 864-66. In that case, a

App. 18
group of home healthcare and childcare providers argued that these provisions violated their First Amendment associational rights because the statute forced
them into a mandatory association with the union that
represented their bargaining unit. Id. at 862-63. We
held that the exclusive representation statute did not
infringe on the plaintiffs’ freedom of association because, as in Knight, the plaintiffs “do not need to join
. . . or ﬁnancially support” the union3 and could form
their own groups or oppose the union if they chose. Id.
at 864. We further rejected the plaintiffs’ argument
that the law created a mandatory association triggering heightened scrutiny because the exclusive-representation system of labor relations did not compel
them to express a particular message, accept undesired members into their own associations, or modify
their expressive conduct. Id. at 865.
Knight and Hill control here to foreclose Bennett’s
claims based on the alleged infringement of her First
Amendment free speech and associational rights. Bennett contends that exclusive representation creates a
mandatory association subject to exacting scrutiny because it compels her to both associate with the Union
and endorse speech that she ﬁnds objectionable. She
further argues that exclusive representation under
the IELRA does not meet that heightened standard
3

Although we decided Hill prior to Janus, at that time the
Supreme Court had already struck down as unconstitutional the
part of the Illinois Public Labor Relations Act that required the
Hill plaintiffs to pay mandatory fees. See Harris v. Quinn, 573
U.S. 616, 656 (2014).

App. 19
because it does not serve a compelling state interest.
As we did in Hill, we again reject these arguments
against the constitutionality of exclusive representation.
Moreover, we ﬁnd Bennett’s attempts to distinguish Knight and Hill from this case unavailing. First,
Bennett argues that Knight is distinct because it did
not involve a compelled-representation challenge but
addressed only whether the plaintiffs could force the
government to listen to their views. We considered
and rejected that argument in Hill because Knight
acknowledged that exclusive bargaining required the
state to treat the union representatives as expressing
“the faculty’s ofﬁcial collective position” even though
“not every instructor agrees with the ofﬁcial faculty
view on every policy question.” Knight, 465 U.S. at 276.
The Knight Court nonetheless concluded that this system of labor relations “in no way restrained appellees’
freedom to speak . . . or their freedom to associate or
not to associate with whom they please, including the
exclusive representative.” Id. at 288.
Second, Bennett asserts that Hill itself is distinct
because the plaintiffs there were “partial” public employees—and their union thus had a limited ability to
collectively bargain on their behalf. Accordingly, she
argues that the Hill plaintiffs experienced a lesser
degree of forced association than Bennett does as
a “full-ﬂedged” public employee. As explained above,
however, we based our decision in Hill on Knight,
which considered the exclusive representation of
full public employees. Compare Knight, 465 U.S. at

App. 20
275-76 (explaining that the Minnesota State Board for
Community Colleges, the plaintiff faculty members’
employer, operated and retained ﬁnal policy-making
authority over the state’s community college system),
with Harris, 573 U.S. at 621-23, 645-46 (describing
plaintiff care providers as “partial,” as opposed to “fullﬂedged,” public employees because Illinois law established that private persons receiving homecare services are “employers” of and “control[ ] all aspects of the
employment relationship” with care providers, while
“the State’s role is comparatively small”).
We also disagree with Bennett’s narrow reading of
Hill; our reasoning in that case, rather than being speciﬁc to partial public employees, is equally applicable
to Bennett because—like the Hill plaintiffs—she remains free to join or support a union and to associate
or not associate with whomever she chooses. See Hill,
850 F.3d at 864-65. Nor must she modify her expressive conduct. See id. at 865. In any event, since Hill, we
have stated that “Knight and its progeny ﬁrmly establish the constitutionality of exclusive representation”
for full public employees. Ocol v. Chi. Tchrs. Union, 982
F.3d 529, 532 (7th Cir. 2020).
Finally, we remain unpersuaded by Bennett’s argument in the alternative that Janus overturned
Knight (and by extension Hill). She relies on a passage
in Janus characterizing exclusive representation as “a
signiﬁcant impingement on associational freedoms
that would not be tolerated in other contexts.” 138
S. Ct. at 2478; see also id. at 2460 (explaining that
exclusive representation “substantially restricts the

App. 21
rights of individual employees”). But Janus did not
mention, let alone overrule, Knight or otherwise question the constitutionality of a system of labor relations
based on exclusive representation. The same passage
from Janus that Bennett relies on reafﬁrms that “[i]t
is . . . not disputed that the State may require that a
union serve as exclusive bargaining agent for its employees. . . . We simply draw the line at allowing the
government to go further still and require all employees to support the union irrespective of whether they
share its views.” Id. at 2478. After acknowledging this
principle, the Janus Court concluded that “[s]tates
can keep their labor-relations systems exactly as they
are,” other than charging fair-share fees. Id. at 2485
n.27.
In contrast, Knight speaks directly to the constitutionality of exclusive representation. “The [Supreme]
Court’s instructions in this situation are clear: ‘If a
precedent of this Court has direct application in a case,
yet appears to rest on reasons rejected in some other
line of decisions, the Court of Appeals should follow
the case [that] directly controls, leaving to this Court
the prerogative of overruling its own decisions.’ ” Price
v. City of Chicago, 915 F.3d 1107, 1111 (7th Cir. 2019)
(alteration in original) (quoting Agostini v. Felton,
521 U.S. 203, 237, (1997)). Consistent with that instruction, we apply Knight’s directly applicable precedent and hold that the IELRA’s exclusive-bargainingrepresentative arrangement does not violate Bennett’s
First Amendment rights. We ﬁnd further reinforcement for this conclusion in the fact that every circuit

App. 22
court to address this issue after the Janus decision has
held that exclusive representation remains constitutional. See Reisman v. Associated Facs. of Univ. of Me.,
939 F.3d 409, 414 (1st Cir. 2019), cert. denied, 141 S. Ct.
445 (2020); Oliver, 830 F. App’x at 80-81 (Third Circuit
panel decision); Akers v. Md. State Educ. Ass’n, No. 191524, 2021 WL 852086, at *5 n.3 (4th Cir. Mar. 8, 2021);
Thompson v. Marietta Educ. Ass’n, 972 F.3d 809, 81314 (6th Cir. 2020), petition for cert. docketed, 20-1019
(U.S. Jan. 28, 2021); Bierman v. Dayton, 900 F.3d 570,
574 (8th Cir. 2018); Mentele v. Inslee, 916 F.3d 783, 78689 (9th Cir. 2019).
The district court thus appropriately granted
summary judgment for defendants—appellees as to
Count II.
III.

Conclusion

Bennett cannot establish the existence of a First
Amendment violation on either of the counts in her
complaint. We therefore AFFIRM the district court’s
grant of summary judgment for defendants-appellees
and denial of summary judgment for Bennett.

App. 23
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
[SEAL]
Everett McKinley Dirksen
United States Courthouse
Room 2722 –
219 S. Dearborn Street
Chicago, Illinois 60604

Ofﬁce of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

FINAL JUDGMENT
March 12, 2021
Before: DIANE S. SYKES, Chief Circuit Judge
JOEL M. FLAUM, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge
SUSAN BENNETT,
Plaintiff - Appellant
v.
No. 20-1621

COUNCIL 31 OF THE AMERICAN
FEDERATION OF STATE,
COUNTY AND MUNICIPAL
EMPLOYEES, AFL-CIO, et al.,
Defendants - Appellees

Originating Case Information:
District Court No: 4:19-cv-04087-SLD-JEH
Central District of Illinois
District Judge Sara Darrow
We AFFIRM the district court’s grant of summary
judgment for defendants-appellees and denial of

App. 24
summary judgment for Bennett, with costs, in accordance with the decision of this court entered on this
date.

App. 25
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
ROCK ISLAND DIVISION
SUSAN BENNETT,

)
)
Plaintiff,
)
v.
)
)
AMERICAN FEDERATION
)
OF STATE, COUNTY, AND
)
MUNICIPAL EMPLOYEES,
)
COUNCIL 31, AFL-CIO;
)
AFSCME LOCAL 672;
)
BOARD OF EDUCATION
MOLINE-COAL VALLEY
)
SCHOOL DISTRICT NO. 40;1 )
ATTORNEY GENERAL
)
KWAME RAOUL, in his official )
capacity; and ANDREA R.
)
WAINTROOB, chair,
)
JUDY BIGGERT, GILBERT
)
O’BRIEN JR., LYNNE SERED, )
and LARA SHAYNE, members, )
of the Illinois Educational
)
Labor Relations Board,
)
in their ofﬁcial capacities,
)
)
Defendants.

1

Case No. 4:19-cv04087-SLD-JEH

Defendant Board of Education of Moline-Coal Valley School
District No. 40 was incorrectly named Moline-Cole Valley School
District No. 40 in the caption of the Complaint, ECF No. 1. See
Not. of Correction, ECF No. 3; Sch. Dist. Answer 1, ECF No. 17.

App. 26
ORDER
(Filed Mar. 31, 2020)
Before the Court are Defendants Attorney General
Kwame Raoul, Andrea R. Waintroob, Judy Biggert,
Gilbert O’Brien Jr., Lynne Sered, and Lara Shayne’s
(“State Defendants”) Motion to Dismiss, ECF No. 14;2
Defendants American Federation of State, County, and
Municipal Employees, Council 31, AFL-CIO (“Council
31”) and AFSCME Local 672’s (“Local 672”) (collectively, “the Union”) Motion for Summary Judgment,
ECF No. 30; Defendant Board of Education MolineCoal Valley School District No. 40’s (“School District”)
Motion for Summary Judgment, ECF No. 32; and
Plaintiff Susan Bennett’s Motion for Summary Judgment, ECF No. 27. For the reasons that follow, Defendants’ motions are GRANTED and Plaintiffs motion is
DENIED.

2

On July 22, 2019, the parties agreed that the State Defendants’ Motion to Dismiss be considered, along with the anticipated joint statement of stipulated facts, as a motion for summary
judgment. Agreed Mot. Stay Brieﬁng Mot. Dismiss 1-2, ECF No.
21. On August 2, 2019, the Court granted the agreed motion and
will treat the State Defendants’ Motion to Dismiss as one for summary judgment under Rule 56 of the Federal Rules of Civil Procedure. Fed. R. Civ. P. 12(d).

App. 27
BACKGROUND3
Plaintiff has been employed as a custodian by the
School District since August 2009. Council 31, a Chicago based labor organization under Section 2(c) of the
Illinois Educational Labor Relations Act (“IELRA”),
115 ILCS 5/1–21, represents public sector workers employed by government employers in Illinois. Local 672
is also organized under Section 2(c) of the IELRA and
represents custodial and maintenance employees of
the School District out of its Moline, Illinois location.
The School District is an Illinois public school district
with its principal ofﬁce located in Moline, Illinois. The
School District is an educational employer under Section 2(a) of the IELRA. Attorney General Raoul is sued
in his ofﬁcial capacity as the representative of the
State of Illinois charged with the enforcement of
state laws, including the IELRA. Waintroob, Biggert,
O’Brien Jr., Sered, and Shayne, are members of the Illinois Educational Labor Relations Board (“IELRB”)
and are sued in their ofﬁcial capacities. The IELRB has
certiﬁed Council 31 as the exclusive representative,
pursuant to 115 ILCS 5/8, for the bargaining unit

3

The facts related here are taken from the Joint Stipulated
Record, ECF No. 26, the exhibits attached to it, the State Defendants’ Background, State Defs.’ Mem. Supp. Mot. Dismiss 1-3,
ECF No. 15; the Union’s Statement of Facts, Union’s Br. Supp.
Mot. Summ. J. 2-5, ECF No. 31; and the School District’s Statement of Undisputed Material Facts, Sch. Dist.’s Br. Supp. Mot.
Summ. J. 2-3, ECF No. 33. See Pl.’s Combined Resp. Defs.’ Mots.
2, ECF No. 34 (indicating no objection to the facts recited in the
Defendants’ motions).

App. 28
consisting of the School District’s custodial and
maintenance employees.
School District employees may become union
members but joining the Union has never been a condition of employment. Union members had the right
to vote on whether to ratify a collective bargaining
agreement, the opportunity to serve on bargaining
committees, the right to vote in union elections, and
the right to be nominated for or elected to union ofﬁce.
Plaintiff, who has been employed by School District
since August 2009 in a bargaining unit position represented by Council 31, initially became a member of the
Union in November 2009 by signing a membership and
dues-deduction authorization card (“2009 Card”) that
stated: “I hereby authorize my employer to deduct the
amount as certiﬁed by the Union as the current rate of
dues. This deduction is to be turned over to AFSCME,
AFL-CIO.” 2009 Card, Joint Stip. R. Ex 1, ECF No. 261. On August 21, 2017, Plaintiff signed a Council 31
membership and dues-deduction authorization card
(“2017 Card”) that stated:
I hereby afﬁrm my membership in AFSCME
Council 31, AFL-CIO and authorize AFSCME
Council 31 to represent me as my exclusive
representative on matters related to my employment.
I recognize that my authorization of dues deductions, and the continuation of such authorization from one year to the next, is voluntary
and not a condition of my employment.

App. 29
I hereby authorize my employer to deduct
from my pay each pay period that amount
that is equal to dues and to remit such
amount monthly to AFSCME Council 31
(“Union”). This voluntary authorization and
assignment shall be irrevocable for a period of
one year from the date of authorization and
shall automatically renew from year to year
unless I revoke this authorization by sending
written notice . . . to my Employer and to the
Union postmarked not more than 25 days and
not less than 10 days before the expiration of
the yearly period described above, or as otherwise provided by law.
2017 Card, Joint Stip. R. Ex 2, ECF No. 26-2.
The Union requires yearly dues commitments to
facilitate the School District’s dues-deductions process
and to help budget and make advance ﬁnancial commitments, such as renting offices, hiring staff, and
entering into contracts with other vendors. The Union
and the School District have agreed to three consecutive collective bargaining agreements (“CBA”) since
July 1, 2014, with the current collective bargaining
agreement (“Current CBA”) set to expire on June 30,
2020. The School District deducted union dues from
wages earned by Plaintiff and the other union members in her bargaining unit and remitted them to
Council 31. The School District had no role, authority,
or discretion in determining union membership, the
amount of dues deductions, or the opt-out window. The
Union informed the School District as to who was and

App. 30
who was not a member and the amount of any dues
deduction to be withheld from employees’ paychecks.
Prior to June 27, 2018, nonmember employees
were required to pay “fair-share fees” to the Union pursuant to Article XV, Section 2 of both the 2014–2017
CBA and the 2017–2018 CBA and 5 ILCS 315/6(e).4
The School District and Council 31 stopped enforcing
the fairshare-fee requirement of the 2017–2018 CBA
and stopped deducting and collecting fair-share fees
immediately after the Supreme Court issued its decision in Janus v. American Federation of State, County,
and Municipal Employees, Council 31, 138 S. Ct. 2448
(2018). The Current CBA contains no fair-share-fee requirement.
In August 2018, Plaintiff attended a union membership meeting, at which time she voted on whether
to ratify the Current CBA. On March 4, 2019, Plaintiff
resigned her union membership and on July 29, 2019,
within the 2017 Card’s revocation window, revoked her
dues-deduction authorization. The School District
stopped deducting dues from her wages.
On April 26, 2019, Plaintiff ﬁled suit pursuant to
42 U.S.C. § 1983 and the First and Fourteenth Amendments (1) alleging that the School District and the Union violated Plaintiff ’s First Amendment rights to free
speech and freedom of association, Compl. ¶¶ 37–45,
ECF No. 1; (2) seeking a judgment declaring that
4

For some reason, the parties cite to the fair-share fee provision in the Illinois Public Labor Relations Act rather than the
IELRA’s version at 115 ILCS 5/11. Joint Stip. R. ¶ 27.

App. 31
(i) Defendants’ collective bargaining agreement, entered under color of and pursuant to Illinois law, violated Plaintiffs free speech rights by purporting to
limit the ability of Plaintiff to revoke the duesdeduction authorization to a window of time without
afﬁrmative consent, id. at 10(a)–11(a); (ii) the 2017
Card signed by Plaintiff—when such authorization
was based on an unconstitutional choice between paying the union as a member or paying the union as a
nonmember—did not meet the standard for afﬁrmative consent required to waive the First Amendment
right announced in Janus, id. at 11(b); and (iii) the exclusive representation provided for in 115 ILCS 5/3 is
unconstitutional, id. ¶¶ 46–56; (3) seeking to enjoin
(i) the Illinois Attorney General from enforcing 115
ILCS 5/3, id. at 11(g); and (ii) Waintroob, Biggert,
O’Brien Jr., Sered, and Shayne as members of the
IELRB from certifying a union as the exclusive representative in a bargaining unit, id. at 12(h). Plaintiff
also seeks damages against the Union for all dues collected from her, before and after the Supreme Court’s
decision in Janus. Id. at 12(i), (j).5 The parties move for
summary judgment on all claims.
5

Plaintiff also seeks a judgment declaring that the School
District’s practice of withholding union dues from Plaintiff ’s
paycheck is unconstitutional, to prohibit further deductions, and
to require the Union to allow Plaintiff to immediately resign her
union membership. Compl. 11(c)–(e). To satisfy Article III’s requirement that courts consider only actual cases or controversies,
prospective injunctive relief is only available if plaintiffs demonstrate a real and immediate threat of future injury. City of Los
Angeles v. Lyons, 461 U.S. 95, 102 (1983); UWM Student Ass’n v.
Lovell, 888 F.3d 854, 860 (7th Cir. 2018) (same). Plaintiff has resigned from the union and dues are no longer being deducted from

App. 32
DISCUSSION
I.

Legal Standard

“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). The court
must view the evidence “in the light most favorable to
the nonmoving party[ ] and draw[ ] all reasonable inferences in that party’s favor, “McCann v. Iroquois
Mem’l Hosp., 622 F.3d 745, 752 (7th Cir. 2010) (citing
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255
(1986)), and determine whether there is sufﬁcient evidence favoring the nonmoving party for a factﬁnder to
return a verdict in its favor. Anderson, 477 U.S. at 249.
Since the parties have stipulated to a set of facts, the
Court views each party’s motion in the light most favorable to the non-moving party and determines
whether the movant is entitled judgment as a matter
of law. 42 U.S.C. § 1983 provides a cause of action
against “[e]very person who, under color of any statute,
ordinance, regulation . . . subjects, or causes to be
subjected, any [person] . . . to the deprivation of any
rights, privileges, or immunities secured by the Constitution and laws.” Freedom of speech and association
are protected by the First Amendment, which is made
applicable to the states through the Fourteenth
Amendment.

her wages, Joint Stip. R. ¶ 39, so Plaintiff ’s requests for injunctive relief are MOOT.

App. 33
II.

Analysis

In Janus, the Supreme Court held that the Illinois
Public Labor Relations Act’s (“IPLRA”) enforcement
of a collective bargaining agreement’s fair-share fee
provision violated the free speech rights of nonmembers because it “compel[ed] them to subsidize private
speech on matters of substantial public concern” without their consent. Janus, 138 S. Ct. at 2459–61. While
a nonmember may choose to pay a fair-share fee, one
may not be collected “unless the employee afﬁrmatively consents to pay[,] . . . [thereby] waiving [his]
First Amendment rights.” Id. at 2486.
Here, Plaintiff argues the Union’s previous offer to
employees—to be a fair-share-fee paying nonmember
or a dues-paying member—was an unconstitutional
choice under Janus and failed to provide her with an
opportunity to afﬁrmatively waive her First Amendment right to not pay the Union a portion of her wages.
Pl.’s Mem. Supp. Mot. Summ. J. 3–6, ECF No. 28. She
also argues that the IELRA’s exclusive representative
provisions violate her First Amendment rights to freedom of speech and freedom of association. Id. at 7–9.
A. Union Dues6
Plaintiff argues that after Janus, payments to a
union could no longer be deducted from a public
6

The parties debate whether Defendants’ conduct constituted state action under section 1983 and the First and Fourteenth Amendments to the Constitution. While far from clear, the
Court will assume state action for purposes of the order.

App. 34
employee’s wages without the employee’s afﬁrmative
consent to waive his First Amendment right to not pay
a union. Pl.’s Mem. Supp. Mot. Summ. J. 3–6. The Union argues Janus held that nonmembers could no
longer be constitutionally required to pay fair-share
fees, but that it had no effect on union members’ obligations to pay fees pursuant to voluntarily signed membership agreements. Union’s Br. Supp. Mot. Summ. J.
5–10, ECF No. 31.
1. Coercion
Plaintiff argues her dues authorization was coerced because she was given the unconstitutional
choice between paying the Union as a nonmember or a
member. “[B]etween paying something for nothing and
paying more for beneﬁts she did not consider worth the
cost, she decided to take the latter option.” Pl.’s Mem.
Supp. Mot. Summ. J. 4.7 The Union, relying on similar
cases filed throughout the country after Janus, argues that Plaintiff chose to join the Union and cannot
void the dues-deduction authorization commitment on
7

The Union calls attention to the missing factual basis for
Plaintiff ’s claim—there is no evidence “that she only joined the
Union because of the then-applicable fair-share fee requirement.”
Union’s Br. Supp. Mot. Summ. J. 7–8. Instead, the evidence shows
Plaintiff voluntarily became a union member and received membership beneﬁts in exchange. See Joint Stip. R. ¶¶ 10, 13, 41–43
(listing beneﬁts such as “home mortgage assistance,” . . . “access
to scholarship programs” and “discounts on wireless phone plans,
auto insurance, life insurance, and legal services.”) Once Plaintiff
resigned her membership, she no longer had membership rights
or access to members-only beneﬁts.

App. 35
grounds of coercion. Union’s Br. Supp. Mot. Summ. J.
5–8.8 Coercion is deﬁned as the “[c]ompulsion of a free
agent by physical, moral, or economic force or threat
of physical force.” Coercion, Black’s Law Dictionary
(11th ed. 2019). “Economic duress . . . is an afﬁrmative
defense to a contract, which releases the party signing
under duress from all contractual obligations. Duress
occurs where one is induced by a wrongful act or threat
of another to make a contract under circumstances
that deprive one of the exercise of one’s own free will.”
Krilich v. Am. Nat’l Bank & Tr. Co. of Chi., 778 N.E.2d
1153, 1162 (Ill. App. Ct. 2002) (citation omitted).
Plaintiff does not factually or legally support her
coercion claim and courts faced with similar challenges
post-Janus have rejected coercion arguments. See
Oliver v. Serv. Emps. Int’l Union Local 668, 415
F. Supp. 3d 602, 606–08 (E.D. Pa. 2019) (rejecting the
plaintiff ’s argument that she was coerced because a
state statute made union membership voluntary);
Babb v. Cal. Teachers Ass’n, 378 F. Supp. 3d 857, 877
(C.D. Cal. 2019) (“Plaintiffs voluntarily chose to pay
membership dues in exchange for certain beneﬁts, and
the fact that [they] would not have opted to pay union
membership fees if Janus had been the law at the time
of their decision does not mean their decision was
therefore coerced.” (brackets and quotation marks
omitted)); Bermudez v. Serv. Emps. Int’l Union, Local
521, No. 18-cv-04312-VC, 2019 WL 1615414, at *2 (N.D.
Cal. Apr. 16, 2019) (rejecting plaintiffs’ state law claims
8

“[E]mployees shall . . . have the right to refrain from any or
all [collective bargaining] activities.” 115 ILCS 5/3(a).

App. 36
for a refund of their membership dues because the decision to pay dues was not coerced or wrongfully collected but based on a valid contract term); Belgau v.
Inslee, 359 F. Supp. 3d 1000, 1016–17 (W.D. Wash.
2019) (holding that neither statute nor collective bargaining agreement compelled involuntary dues deductions and the “notion that the [p]laintiffs may have
made a different choice if they knew the Supreme
Court would later invalidate public employee agency
fee arrangements in Janus does not void their previous
knowing agreements” (quotation marks and brackets
omitted)); Cooley v. Cal. Statewide Law Enf ’t Ass’n, No.
2:18-cv-02961-JAM-AC, 2019 WL 331170, at *3 (E.D.
Cal. Jan. 25, 2019) (same). Accordingly, Plaintiff has
not shown she was under pressure to sign the 2017
Card or otherwise demonstrated that she was coerced.
2. Knowing and Voluntary Waiver
Relatedly, Plaintiff argues she did not knowingly
and voluntarily waive her First Amendment right to
not pay the Union because Janus had not been decided
when she signed the 2017 Card. Pl.’s Mem. Supp. Mot.
Summ. J. 4–6; see Johnson v. Zerbst, 304 U.S. 458, 464
(1938) (“A waiver is ordinarily an intentional relinquishment or abandonment of a known right or privilege”). After all, a waiver of a constitutional right “must
be freely given and shown by clear and compelling evidence.” Pl.’s Mem. Supp. Mot. Summ. J. 3 (quoting
Janus, 138 S. Ct. at 2486) (quotation marks omitted).
The Union shifts the discussion to better describe the

App. 37
“right” waived here.9 While obligated under a union
agreement, Plaintiff did not have a right to not pay a
fair-share fee without giving afﬁrmative consent. Perhaps Plaintiff is actually arguing that her 2017 Card
involuntarily and unknowingly waived her right to
take advantage of Janus. But signing a membership
agreement suggests that she was not intending to assert her right to remain a no-fee paying nonmember.
And the right created in Janus was unknown in 2017
when Plaintiff signed the dues-deduction authorization card. “[C]hanges in intervening law—even constitutional law—do not invalidate a contract.” Smith v.
Bieker, No. 18-cv-05472-VC, 2019 WL 2476679, at *2
(N.D. Cal. June 13, 2019) (citing Brady v. United States,
397 U.S. 742, 757 (1970)). Parties may enter into mutually beneﬁcial contracts that by implication foreclose
future opportunities.

9

Relying on Harper v. Virginia Department of Taxation, 509
U.S. 86, 97 (1993), Plaintiff argues Janus applies retroactively,
meaning that the Union and the School District were required “to
secure Plaintiff ’s afﬁrmative consent for the knowing and voluntary waiver of her rights not to join a union. . . . Because they did
not[,] . . . the Union could not compel her to be a member . . . or to
continue to pay [U]nion dues. . . . Plaintiff ’s union card is void
under Janus.” Pl.’s Mem. Supp. Mot. Summ. J. 5–6. The evidence
indicates Plaintiff “afﬁrm[ed her] membership in [the Union]”
and that her “authorization of dues deductions . . . [wa]s voluntary.” Joint. Stip. R. ¶ 13. Again, Plaintiff points to no evidence
that she would have chosen to not join the Union if she had known
she had a First Amendment right to not pay a fair-share fee.
Plaintiff ’s argument that the Court should apply Janus retroactively to void her voluntarily entered membership and dues-deduction authorization card is rejected.

App. 38
For instance, courts routinely uphold plea agreements that waive defendants’ rights to appeal or collaterally attack their convictions even when the
Supreme Court modiﬁes constitutional criminal law or
procedures in their favor. “[O]ne major purpose of an
express waiver is to account in advance for unpredicted
future developments in the law.” Oliver v. United
States, 951 F.3d 841, 845 (7th Cir. 2020). “By binding
oneself one assumes the risk of future changes in circumstances in light of which one’s bargain may prove
to have been a bad one.” Id. (quotation marks omitted).
A defendant may regret his plea agreement because he
did not anticipate a Supreme Court ruling, but that
“does not render his decision to plead guilty involuntary.” United States v. Vela, 740 F.3d 1150, 1154 (7th
Cir. 2014). If incarcerated defendants cannot rescind
agreements as involuntary in light of subsequently
developed constitutional caselaw, civil litigants disputing property rights should fare no differently. Accordingly, Plaintiff ’s obligation to pay union dues pursuant
to the 2017 Card remains enforceable despite the new
constitutional right identiﬁed in Janus. See also Jared
Allen v. Ohio Civil Serv. Emps. Ass’n AFSCME, Local
11, No. 2:19-cv-3709, 2020 WL 1322051, at *9 (S.D.
Ohio Mar. 20, 2020) (“Plaintiffs have not identiﬁed any
cases where an individual voluntarily entered into a
contract with full information as to the rights he/she
was giving up, waived those rights, and subsequently
was permitted to break that contract based on a
change in the law applicable to those rights.”); Smith
v. Superior Court, Cty. of Contra Costa, No. 18-cv05472-VC, 2018 WL 6072806, at *1 (N.D. Cal. Nov. 16,

App. 39
2018) (rejecting the plaintiffs attempt to invalidate his
union contract after Janus because it was “not the
rights clariﬁed in Janus that are relevant[. The plaintiff ’s] First Amendment right to opt out of union membership was clariﬁed in 1977, and yet he waived that
right by affirmatively consenting to be a member of
Local 2700.” (citing Abood v. Detroit Bd. of Educ., 431
U.S. 209, 235–36 (1977), overruled by Janus, 138 S. Ct.
at 2464)).
The fact that Plaintiff did not sign a waiver of the
later-identiﬁed First Amendment right to not pay a
fair-share fee does not invalidate her agreement to join
the Union.10 The 2017 Card was not the product of coercion and was not involuntary simply because Janus
made union membership less appealing.
B. Exclusive Representation
Representatives selected by a bargaining unit
“shall be the exclusive representative of all the employees in such unit to bargain on wages, hours, terms and
conditions of employment.” 115 ILCS 5/3(b). Plaintiff
argues that this exclusive representation is unconstitutional because the Union uses it to compel her
“speech [when] [ ]the union speaks on behalf of the employees, as though its speech is the employees’ own
speech[ ]” and her “association [because] [ ]the union
10

Even after Plaintiff resigned her union membership, she
was required to fulﬁll her commitment to pay union dues under
the dues-deduction authorization card. Joint Stip. R. ¶¶ 13, 24,
25, 33–36, 38.

App. 40
represents everyone in the bargaining unit without
any choice or alternative for dissenting employees not
to associate.[ ]” Pl.’s Mem. Supp. Mot. Summ. J. 7. She
asserts exclusive representation is subject to “at least
exacting scrutiny, if not strict scrutiny.” Id. at 8 (citing
Knox v. Serv. Emps. Int’l Union, Local 1000, 567 U.S.
298, 310 (2012) (discussing standard of review for
mandatory associations)).
State Defendants contend that requiring exclusive
representation does not create a mandatory association, State Defs.’ Mem. Supp. Mot. Dismiss 5, ECF No.
15, and that Janus did not otherwise disturb the “bedrock principle of labor law” that permits a majority of
employees to select an exclusive representative to represent all employees of the bargaining unit, id. at 3–7.
In support, they and the Union cite Minnesota State
Board for Community Colleges v. Knight, 465 U.S. 271,
271 (1984), D’Agostino v. Baker, 812 F.3d 240, 244 (1st
Cir. 2016), Hill v. Serv. Emps. Int’l Union, 850 F.3d 861
(7th Cir. 2017), and cases that have considered the issue after Janus.
Mandatory associations that force membership
and ﬁnancial support for group speech “implicate the
First Amendment freedom of association, which includes the freedom to choose not to associate, and the
First Amendment freedom of speech, which also includes the freedom to remain silent or to avoid subsidizing group speech with which a person disagrees.”
Kingstad v. State Bar of Wis., 622 F.3d 708, 712–13
(7th Cir. 2010) “Despite [a] general rule against ‘forced
speech,’ . . . the Supreme Court has found that certain

App. 41
mandatory associations—agency shops, agricultural
marketing collectives, and integrated or mandatory
bars—are permitted under the First Amendment because the forced speech serves legitimate governmental purposes for the beneﬁt of all members.” Id. at 713.
“Mandatory associations are subject to exacting scrutiny, meaning they require a compelling state interest
that cannot be achieved through signiﬁcantly less-restrictive means.” Hill, 850 F.3d at 863.
In Knight, non-union college instructors objected
to the union’s exclusive right to bargain on educational
policies, topics beyond the scope of a typical labor relations statute. The Court held that “[t]he state ha[d] in
no way restrained [instructors’] freedom to speak on
any education-related issue or their freedom to associate or not to associate with whom they please, including the exclusive representative. Nor has the state
attempted to suppress any ideas.” Knight, 465 U.S. at
288. Additionally, the instructors were free to not join
the union and to form advocacy groups. Id. at 289.
Plaintiff argues that the instructors in Knight sought
a right to force the government to listen to their policy
views in a formal setting, whereas she only seeks to
not be associated with the Union. Pl.’s Combined
Resp. Defs.’ Mots. 21, ECF No. 34. This is a distinction
without a difference—regardless of a nonmember’s
motivation to contest the association, the effect on
First Amendment rights necessarily resulting from
exclusive representation is not sufficient to invalidate it.

App. 42
Similarly, in D’Agostino, nonmembers bristled at
exclusive-bargaining representation. The court concluded that “exclusive bargaining representation by a
democratically selected union d[id] not, without more,
violate the right of free association on the part of dissenting nonunion members of the bargaining unit.”
D’Agostino, 812 F.3d at 244. Further, it rejected that a
nonmember’s association with a union resulted in compelled speech.
[T]he relationship is one that is clearly imposed by law, not by any choice on a dissenter’s
part, and when an exclusive[-]bargaining
agent is selected by majority choice, it is readily understood that employees in the minority,
union or not, will probably disagree with some
positions taken by the agent answerable to
the majority. And the freedom of the dissenting [employees] to speak out publicly on any
union position further counters the claim that
there is an unacceptable risk the union speech
will be attributed to them contrary to their
own views; they may choose to be heard distinctly as dissenters if they so wish, and . . . the
higher volume of the union’s speech has been
held to have no constitutional significance.
Id. The employees were not “compelled to act as public
bearers of an ideological message they disagree[d]
with,” id. (citing Wooley v. Maynard, 430 U.S. 705
(1977)), required “to modify the expressive message of
any public conduct they may choose to engage in,” id.
(citing Hurley v. Irish–Am. Gay, Lesbian & Bisexual
Grp. of Bos., 515 U.S. 557 (1995)), or “under any

App. 43
compulsion to accept an undesired member of any association they may [have] belong[ed] to,” id. (citing Boy
Scouts of Am. v. Dale, 530 U.S. 640 (2000)).
In Hill, non-union employees asserted that the
IPLRA’s exclusive-bargaining provisions created an
unconstitutional association. Hill, 850 F.3d at 863. The
court, relying on Knight and D’Agostini, concluded that
“the IPLRA[ ] . . . d[id] not compel an association that
trigger[ed] heightened First Amendment scrutiny.” Id.
at 865.11
Plaintiff also suggests the exclusive-bargaining
representation set forth in 115 ILCS 5/3(b) imposes too
great a burden on the First Amendment principles
identiﬁed in Janus. But it is clear that Janus did not
reach the issue and instead, reafﬁrmed the traditional
labor system. “States can keep their labor-relations
systems exactly as they are—only they cannot force
nonmembers to subsidize public-sector unions.” Janus,
138 S. Ct. at 2485 n.27.
[T]he State may require that a union serve as
exclusive[-]bargaining agent for its employees—itself a signiﬁcant impingement on associational freedoms that would not be tolerated
11

Plaintiff argues the Hill plaintiffs were not considered
“full-ﬂedged” public employees, Hill, 850 F.3d at 862 n.1, a status
that necessarily narrowed the scope of the union’s representation
to only those “terms and conditions of employment that [we]re
within the State’s control,” 20 ILCS 2405/3(f ). Plaintiff does not
explain how this distinction impacted the court’s decision, Combined Resp. Defs.’ Mots. 22, and the Court will not speculate, especially in light of Knight’s controlling precedent involving “fullﬂedged” employees.

App. 44
in other contexts. We simply draw the line at
allowing the government to go further still
and require all employees to support the union irrespective of whether they share its
views.
Id. at 2478. On remand, the Seventh Circuit reiterated
the viability of exclusive union representation. “[T]he
union still enjoys the power and attendant privileges
of being the exclusive representative of an employee
unit.” Janus v. Am. Fed’n of State, Cly. & Mun. Emps.,
Council 31, 942 F.3d 352, 358 (7th Cir. 2019). It is “[t]he
principle . . . [that] lies at the heart of our system of
industrial relations.” Id. at 354. This leaves Knight,
Hill, and exclusive representation undisturbed. See
also Mentele v. Inslee, 916 F.3d 783, 789 (9th Cir.
2019) (holding that the state’s “authorization of an
exclusive[-]bargaining representative d[id] not infringe [an employee]’s First Amendment rights”); Bierman v. Dayton, 900 F.3d 570, 574 (8th Cir. 2018)
(applying Knight, because Janus did not consider
Knight or the constitutionality of exclusive representation, to conclude that statute permitting it “did not impinge on the right of association”). As the IELRA does
not create a mandatory association, “it is not subject to
heightened scrutiny,” Hill, 850 F.3d at 866, and is not
an unconstitutional impingement on Plaintiff ’s freedom to associate as protected by the First Amendment,
Knight, 465 U.S. at 288.

App. 45
CONCLUSION
Accordingly, the State Defendants’ Motion to Dismiss, ECF No. 14, the Union’s Motion for Summary
Judgment, ECF No. 30, and the School District’s Motion for Summary Judgment, ECF No. 32, are
GRANTED. Plaintiff ’s Motion for Summary Judgment, ECF No. 27, is DENIED. This action is DISMISSED WITH PREJUDICE. The Clerk is directed to
enter judgment and close the case.
Entered this 31st day of March, 2020.
s/ Sara Darrow
SARA DARROW
CHIEF UNITED STATES DISTRICT JUDGE

App. 46
UNITED STATES DISTRICT COURT
for the
Central District of Illinois
Susan Bennett,

)
)
Plaintiff,
)
Case Number:
vs.
)
) 19-4087
Council 31 of the American
)
Federation of State, County,
)
and Municipal Employees,
AFL-CIO, AFSCME Local 672, )
)
Moline Coal Valley School
District No. 40, Kwame Raoul, )
Andrea Waintroob, Judy Biggert, )
Gilbert O’Brien, Jr., Lynne
)
Sered, Lara Shayne,
)
)
Defendants,
)
Moline-Coal Valley School
)
District No. 40,
)
Cross Claimant,
)
)
vs.
)
AFSCME Local 672, Council 31
)
of the American Federation of
)
State, County, and Municipal
)
Employees, AFL-CIO,
)
Cross Defendants
)

App. 47
JUDGMENT IN A CIVIL CASE
(Filed Apr. 2, 2020)
DECISION BY THE COURT. This action came before the Court, and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that Bennett’s
action against Council 31 of the American Federation
of State, County, and Municipal Employees, AFL-CIO
(“Council 31”), AFSCME Local 672, Moline Coal Valley School District No. 40, Kwame Raoul, Andrea
Waintroob, Judy Biggert, Gilbert O’Brien, Jr., Lynne
Sered, and Lara Shayne is dismissed and she recovers
nothing on her claims. Moline-Coal Valley School District No. 40’s cross claim against Council 31 and AFSCME Local 672 is dismissed and it receives nothing
on its claim.
Dated:

4/2/2020

s/ Shig Yasunaga SY
Shig Yasunaga, Clerk,
U.S. District Court

App. 48
UNITED STATES DISTRICT COURT
for the
Central District of Illinois
Susan Bennett,

)
)
Plaintiff,
)
vs.
) Case Number:
) 19-4087
Council 31 of the American
)
Federation of State, County,
)
and Municipal Employees,
AFL-CIO, AFSCME Local 672, )
)
Moline Coal Valley School
District No. 40, Kwame Raoul, )
Andrea Waintroob, Judy Biggert, )
)
Gilbert O’Brien, Jr., Lynne
)
Sered, Lara Shayne,
)
Defendants,
)
)
Moline-Coal Valley School
)
District No. 40,
)
Cross Claimant,
)
vs.
)
AFSCME Local 672, Council 31 )
Of the American Federation of )
)
State, County, and Municipal
)
Employees, AFL-CIO
)
Cross Defendants

App. 49
AMENDED JUDGMENT IN A CIVIL CASE
(Filed Sep. 23, 2020)
DECISION BY THE COURT. This action came before the Court, and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that Susan
Bennett’s action against Council 31 of the American
Federation of State, County, and Municipal Employees,
AFL-CIO (“Council 31”), AFSCME Local 672, Moline
Coal Valley School District No. 40, Kwame Raoul,
Andrea Waintroob, Judy Biggert, Gilbert O’Brien, Jr.,
Lynne Sered, and Lara Shayne is dismissed and she
recovers nothing on her claims. Moline-Coal Valley
School District No. 40’s crossclaim against Council 31
and AFSCME Local 672 is DISMISSED WITHOUT
PREJUDICE
Dated:

9/23/2020

s/ Shig Yasunaga SY
Shig Yasunaga
Clerk, U.S. District Court

